 

Paut D. Connick, JR.

District ATTORNEY
Twenty-Fourta Jupiciat District
Parish Or JEFFERSON

Marecaret E. Hay State Or Louisiana 200 Dericny Street
First AssisTANT GRETNA, LA 70053
District ATTORNEY Puone: (504) 368-1020

April 17, 2021

By electronic submission

The Honorable Scott S. Harris

Clerk of Court, Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: Emmett Garrison, IV v. Louisiana
No. 20-7160

Dear Mr. Harris:

This Court has requested a response from the Respondent, the State of Louisiana, in this
matter. The brief in opposition is currently due on April 28, 2021. Considering the complexity and
novelty of the issues involved, the State respectfully requests an extension of thirty (30) days in
which to file its brief in opposition.

The new due date would be May 28, 2021.

PAUL D. CONNICK, JR.
DISTRICT ATTORNEY

Darren A. Allemand
Assistant District Attorney

CC: Meghan Bitoun, Counsel for Emmett Garrison, IV
DA/bd

Enc.
